<html>
<title> - IRAN'S NUCLEAR IMPASSE: NEXT STEPS</title>
<body><pre>[Senate Hearing 109-966]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 109-966
 
                   IRAN'S NUCLEAR IMPASSE: NEXT STEPS 
=======================================================================
                                HEARING

                               before the

                FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT
                     INFORMATION, AND INTERNATIONAL
                         SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 20, 2006

                               __________

        Available via http://www.access.gpo.gov/congress/senate

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

29-513 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
             Michael L. Alexander, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk


FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, AND INTERNATIONAL 
                         SECURITY SUBCOMMITTEE

                     TOM COBURN, Oklahoma, Chairman
TED STEVENS, Alaska                  THOMAS CARPER, Delaware
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
LINCOLN D. CHAFEE, Rhode Island      DANIEL K. AKAKA, Hawaii
ROBERT F. BENNETT, Utah              MARK DAYTON, Minnesota
PETE V. DOMENICI, New Mexico         FRANK LAUTENBERG, New Jersey
JOHN W. WARNER, Virginia             MARK PRYOR, Arkansas

                      Katy French, Staff Director
                 Sheila Murphy, Minority Staff Director
            John Kilvington, Minority Deputy Staff Director
                       Liz Scranton, Chief Clerk



















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Coburn...............................................     1
    Senator Carper...............................................     3
    Senator Dayton...............................................    26

                               WITNESSES
                        Thursday, July 20, 2006

Amir Abbas Fakhravar, Chairman, Independent Student Movement 
  (through a translater).........................................     4
Ilan Berman, Vice President for Policy, American Foreign Policy 
  Council........................................................     7
Michael A. Ledeen, Freedom Scholar, American Enterprise Institute     9
Ray Takeyh, Senior Fellow, Middle East Studies, Council on 
  Foreign Relations..............................................    12
Jim Walsh, Security Studies Program, Massachusetts Institute of 
  Technology.....................................................    14

                     Alphabetical List of Witnesses

Berman, Ilan:
    Testimony....................................................     7
    Prepared statement...........................................    40
Fakhravar, Amir Abbas:
    Testimony....................................................     4
    Prepared statement...........................................    37
Ledeen, Michael A.:
    Testimony....................................................     9
    Prepared statement...........................................    46
Takeyh, Ray:
    Testimony....................................................    12
    Prepared statement...........................................    54
Walsh, Jim:
    Testimony....................................................    14
    Prepared statement...........................................    59


                   IRAN'S NUCLEAR IMPASSE: NEXT STEPS

                              ----------                              


                        THURSDAY, JULY 20, 2006

                                     U.S. Senate,  
            Subcommittee on Federal Financial Management,  
        Government Information, and International Security,
                            of the Committee on Homeland Security  
                                          and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:39 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Tom Coburn, 
Chairman of the Subcommittee, presiding.
    Present: Senators Coburn, Carper and Dayton.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. The Federal Financial Management and 
International Security Subcommittee of Homeland Security and 
Governmental Affairs will come to order. I want to welcome all 
of our guests. I have thoroughly read your testimony, even 
those that have come somewhat late. I appreciate the efforts 
that you have made to inform this Subcommittee of your thoughts 
and views.
    We live in a dangerous time, a dangerous world. The events 
that are unfolding in the Middle East today are not always what 
they seem to be, and, in fact, proxies appear to be performing 
for others.
    There is no question that the largest sponsor of terrorism 
in the world is the government of Iran. Without question, that 
not only impacts the Middle East but the rest of the world. 
There is no question that the sponsor and promoter and payer 
for the improvised explosive devices that are multidirectional 
and unidirectional in Iraq are prepared and paid for by the 
government of Iran.
    The purpose of this hearing, however, is to discuss Iran's 
nuclear impasse and what is to be done about it and the 
evidentiary nature of the statements that have been made by 
their own negotiators and that they do not intend to negotiate 
straightforward, they intend to buy time, as published widely 
and worldwide by the fact that their negotiator said they 
stalled the EU so that they could continue developing.
    I think it is very important for us--and I want to thank my 
co-Chairman Senator Carper for having initiated this second of 
our hearings on Iran. But it is important for us to understand 
the seriousness of the threat to the entire world, not just the 
Middle East.
    I also think it is very important for us to recognize the 
threat that the government of Iran is to the people of Iran, to 
the very people that they supposedly represent because 
ultimately what they do, it does them tremendous damage.
    I have a complete written statement I will make a part of 
the record.
    [The prepared statement of Senator Coburn follows:]
                  PREPARED STATEMENT OF SENATOR COBURN
    Within the past few weeks, the regime in Iran illustrated yet again 
why it is a threat that the world cannot afford to ignore any longer. 
There is no doubt that Iran is behind the two-front war being waged 
against our closest ally in the Middle East, Israel, by Hamas and 
Hezbollah terrorists. Just like there is no doubt that Iran is behind 
the road-side bombs and other terrorist acts killing Allied soldiers 
and innocent civilians in Iraq. For decades, the regime in Iran has 
been exporting terror all around the world and killing untold numbers 
including Americans, Israelis, Iraqis, and even fellow Iranians. Iran 
is already a threat to the world without a nuclear capability--nuclear 
weapons will only exacerbate that threat.
    When the Iran's nuclear weapons program was first revealed by 
Iranian dissidents in 2002, the international community could no longer 
deny the problem. In 2003, Germany, France, and Britain--the ``E.U.-
3''--responded by offering Iran a generous economic package and a 
promise of help developing so called ``peaceful'' sharing of nuclear 
technology. The condition was that Iran would have to stop enriching 
uranium. After lengthy negotiations, Iran responded by breaking the 
I.A.E.A. seals on its centrifuges and rejecting the deal. The following 
year, the Europeans tried another round of negotiations, resulting in 
even more E.U.-3 concessions. But again, after lengthy negotiations, 
Iran responded by breaking I.A.E.A. seals on its uranium conversion 
facility and continued to develop nuclear technology.
    We now know that Hassan Rowhani, the Iranian representative at the 
negotiations, admitted that while he was negotiating with the 
Europeans, the regime rushed to complete a major nuclear site. The 
Telegraph article, aptly entitled ``How we duped the West, by Iran's 
nuclear negotiator,'' quotes Rowhani as saying he created a ``tame 
situation'' to buy time for the regime to finish the job.
    President Bush has decided to give Iran one more opportunity at 
negotiations. The United States has expanded the already generous 
economic incentive package and has made Iran one final offer. It is 
uncertain whether this new round of negotiations represents an exercise 
in truly checking every last box or the Administration is indulging to 
the prevailing in truly checking every last box or the Administration 
is indulging to the prevailing appeasement ideology in Europe and in 
some quarters at the State Department. Let's hope that nobody is 
actually counting on good faith from a regime which has shown no sign 
of it, and that these many efforts are simply an instrument of pressure 
for the international community to demonstrate that everything has 
truly been tried.
    Amazingly, even after all we know regarding the regime's central 
role in terrorism both inside and outside of Iran, some analysts here 
in the United States jump at the chance to defend Iran's pursuit of 
nuclear weapons. Since the beginning, the Iranian regime has referred 
to the United States as ``the Great Satan'' and, even when a so-called 
reformer was president, the regime rules Iran with an iron fist--
crushing all who would dare call for democracy and freedom--and 
continues to be a state sponsor of terror. Against all rationality, the 
apologists believe the regime will somehow have a change of heart if 
only the United States offers trade relations, university scholarships, 
and relaxed travel visas to the regime.
    The regime's stall tactics are well documented, and recent Iranian 
calls for more time and talking appear to be more of the same. Assuming 
that these will eventually fail to deter an Iranian nuclear program, 
the United States has three options left: Sanctions, military action 
and aggressive democracy promotion.
    Unfortunately, sanctions are not a promising option. First, they 
must be agreed upon by everyone. Second, even when they are, they 
haven't worked. Third, they won't pass in the U.N. Given the track 
record with the U.N. on Burma, Sudan, Iraq, North Korea and any other 
dangerous regime, it is highly unlikely we will see the Security 
Council enforce an effective sanctions package against Iran. It would 
be equally difficult for the United States to form a coalition of 
willing nations since many European countries depend on Iran's energy 
exports and several Western nations have significant trade relations 
with the regime.
    So, what about military options? While a full-scale invasion is not 
necessarily ``off the table,'' it doesn't appear to have any serious 
weight in the current policy track of the Administration. Surgical 
strikes, on the other hand, appear to be within the realm of 
possibility. Advocates say there are only a limited number of nuclear 
sites, and striking them would cripple Iran's program. Opponents say 
our intelligence on Iran is limited and unreliable. Regardless, it is 
doubtful that President Bush wants to pass on to his successor the same 
unresolved problems he inherited--North Korea, Iran, and al-Qaeda. 
Surgical air strikes might be a fast and effective way to ensure he 
doesn't leave office with Iran having a nuclear arsenal with which to 
blackmail and threaten free nations.
    Perhaps the greatest hope the world has is the spirit of liberty 
among the Iranian people. Seventy percent of the Iranian people are 
below the age of 30. These young people want a country of opportunity, 
freedom, a chance to live out their dreams--not an oppressive 
dictatorship under constant isolation from the free world. As was the 
case in the former Soviet Union, Poland, Czechoslovakia, Ukraine, and 
many of the other Soviet satellites, the role of democracy 
revolutionaries was essential to these countries' transformation.
    Iran poses a grave threat to the world but an even graver threat to 
Iranians; and therein lays our greatest hope for peace. By aggressively 
and intelligently supporting the millions of young Iranians who long 
for freedom and opportunity, the free world can loosen the iron grip of 
the ayatollahs. That's why I've co-sponsored the Iran Freedom and 
Support Act. But just throwing money at so-called democracy promotion 
programs isn't enough. If not done right, programs can do more harm 
than good. We have a responsibility to Iran's young people to oversee 
these programs.
    The purpose of today's hearing is to discuss these policy options 
and the next steps for dealing with Iran. I want to thank the witnesses 
for being here today, and I look forward to your testimonies.

    Senator Coburn. I would like to recognize my Co-Chairman, 
Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks very much, Mr. Chairman. To our 
witnesses today, welcome. We appreciate your willingness to 
stop what you are doing in your lives to be here with us today 
and to share your thoughts and to respond to some of our 
questions. I want to thank the Chairman for scheduling this 
hearing and our staffs for working to prepare us for this day.
    Every now and then we have hearings, and I am sure we both 
participate in them, and you say, Why is this relevant to what 
is going on in the world? Today we do not ask that question. We 
know for sure why this is relevant to what is going on in the 
world, in our lives and certainly in the lives of a lot of 
people in the Middle East.
    For nearly 2 weeks, violence in the Middle East has led to 
more than 300 deaths, with many of those dying being civilians. 
Iran, through its sponsorship of Hezbollah and its willingness 
to back Syria, has been publicly linked to these events.
    Our country has been placed in a difficult situation, a 
situation where we must lead our allies on the one hand to 
strategically contain the conflict between Hamas, Hezbollah, 
and Israeli forces, and at the same time try to help stop the 
Iranians from developing nuclear weapons.
    The Administration has entered a decision to engage in 
talks with Iran, multilateral talks with Iran regarding its 
nuclear program. But, unfortunately, the success of this path 
remains today at least in question, especially given the 
current situation.
    Additionally, the Administration has said that it will send 
Secretary Rice to both the U.N. and to the Middle East to 
discuss a solution to ending the conflict involving the 
Israelis and some of their neighbors.
    I cannot more urgently stress the need for these visits to 
happen as soon as possible or the need for the United States to 
utilize our diplomatic leverage to urge a cease-fire to the 
fighting that continues to claim innocent lives.
    I am looking forward to hearing the testimony from all of 
you, and we look forward to the opportunity to see if that 
testimony may shed a little more light on both the situations 
that we face and a possible better path forward. Thank you.
    Senator Coburn. Again, welcome to our panelists. I will 
introduce each of you, and then we will recognize you. Your 
full statements will be made part of the record. Because Mr. 
Fakhravar will have an interpreter, we will give him an 
additional amount of time with which to make his statement.
    Amir Abbas Fakhravar is Chairman of the Independent Student 
Movement, is an Iranian student leader that recently left Iran 
and came to the United States in April of this year. While in 
Iran, Mr. Fakhravar was imprisoned by the regime for his 
writings and activities that promote a free and democratic 
Iran.
    Next is Dr. Michael Ledeen, who is the Freedom Scholar at 
the American Enterprise Institute. His research areas include 
state sponsors of terrorism, Iran, and the Middle East.
    Ilan Berman is Vice President for Policy at the American 
Foreign Policy Council. Mr. Berman's research includes Iran and 
the Middle East.
    Dr. Ray Takeyh is Senior Fellow for Middle East Studies at 
the Council on Foreign Relations. He has testified before this 
Committee before. Welcome back. He works on issues related to 
Iran and political reform in the Middle East.
    Finally, Dr. Jim Walsh is from the Security Studies Program 
at the Massachusetts Institute of Technology. He researches 
international security policy.
    Each of you will be allotted 5 minutes, and we will be 
somewhat free with that time, if we can. If you do not have 
time to make your point, we will be lenient in that regard. And 
I want to welcome you. And to our leader of the Iranian Student 
Movement, there is a movie that is well known in America, and a 
classic line from it is, ``People don't follow titles. They 
follow courage.'' I want to commend your courage and offer you 
my admiration for your leadership for what you are doing. You 
are recognized for 5 minutes.

  TESTIMONY OF AMIR ABBAS FAKHRAVAR,\1\ CHAIRMAN, INDEPENDENT 
                        STUDENT MOVEMENT

    Mr. Fakhravar. Thank you very much for giving me the honor 
and opportunity to speak at the U.S. Senate, one of the world's 
oldest and most distinguished democratic institutions. I assure 
you that the very thought of being able to be with you fills me 
with joy and awe. You are, as your ancestors promised, a beacon 
of light to all nations around the world.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fakhravar appears in the Appendix 
on page 37.
---------------------------------------------------------------------------
    [Through translator.] My name is Amir Abbas Fakhravar. I am 
basically leader of a portion of student movement in Iran. I 
have been through jails and tortured. As a result of torture, 
you can see the scars on my face. My left wrist was broken. My 
knee was broken.
    I am here to voice the Iranian operation, bring it to your 
attention, and the basic regime change model and the message is 
what we are here to pass on to you all.
    I have four points to make here.
    First is the negotiation part. Is there any real truth and 
meaningful reason to have the negotiations with the Islamic 
regime?
    I have lived all my life under the system, the current 
system in Iran, and I know the system very well. There is no 
way that there is any place of negotiation with these people.
    You can negotiate with people who have logical minds and 
humanistic beliefs. The people in charge in Iran do not have 
either one. They are brutal and oppressive. The crimes that 
they pull on the people of Iran, you can see it based on 
examples like stoning, cutting off their hands, eye gouging, 
and torture.
    I am not saying that the negotiation is not going to be 
fruitful--sorry, that the negotiations are going to be futile. 
However, it is not just futile. It is dangerous, outright 
dangerous, because you will provide them legitimacy. The 
Islamic regime has no legitimacy both inside and outside of 
Iran.
    Through this negotiation, you are giving them the 
legitimacy, at least inside of Iran, towards the Iranian people 
inside.
    Heads of Islamic regime are moving toward this movement to 
bring bloody ordeal in the country, in the world. This is one 
of the fundamental religious beliefs.
    Ahmadinejad, Khamenei, and Mesbaheh Yazdi are all of the 
belief that for bringing back the 12th Imam, Shi'ite Imam, the 
whole world has to be in a chaotic and bloody way before they 
arrive. They will do anything to disrupt the order of the world 
and make a mockery of the world so they can reach to their goal 
of bringing the 12th Imam back to life.
    I am here standing in front of you to tell you that the 
youth of Iran, the Iranian students, do have the power to stand 
in front of this regime. We did show the might and the power of 
the Iranian student movement on the July 9, 1999, protest. At 
that time we did not have a full organized group, and we did 
not have the full education to combat this regime and uprise.
    Through the means of communication, we would like to 
broadcast and promote democracy amongst the Iranian young and 
other groups such as labor movements, women movements, and 
other participants in other movements. We need communication 
devices, such as mobile cell phones, printers to print our 
magazines and our fliers. We need websites. Most importantly, 
we need radio and TV broadcasts. Both Radio Farda and Voice of 
America, the Persian version, can help us greatly.
    The path that they have taken so far does not seem to be 
helping. I do not think that the U.S. taxpayers are happy to 
see their monies being used for propaganda against the United 
States. The most optimistic ones of the analysts and all do not 
even trust the reform within the regime. People of Iran have 
not received accurate news for years. They do need to hear 
accurate news and accurate analysis. With a so-called balanced 
view of these two media, the Voice of America and Radio Farda, 
they have really caused nothing but confusion among Iranians.
    Every program should be geared toward regime change, and 
that is what Iranians inside of Iran wish for. We are planning 
through an organization called ``Confederation of Iranian 
Students'' to organize all students once again. We can 
accomplish this organization, we can organize it. However, the 
Iranians inside of Iran do need to know that people of the 
world are standing by them.
    Through a hard sanction, multilateral sanction, I do 
believe that the Iranian people will come to the realization 
that the world is not supporting the regime, should not be 
worried about this sanction. My younger brothers and sisters 
and mother are living inside of Iran. They are going through 
very hard economic conditions. This is throughout Iran for 
everybody. They are willing to handle a short period of hard 
times so they would get rid of this regime once and for all. 
Iran is not a poor country. But the income of the country goes 
basically into the mullahs' pockets and their children, their 
sons.
    All Iranians do know that after removal of the regime, 
there would be foreign investments. We can use this sanction to 
organize and gather up people, bring them together.
    And about the military, nobody is after military action, 
neither us nor you. All we are doing is to show that we do have 
the power and let you know that we can do it from inside. We 
would like to replace Islamic regime with a secular democratic 
system. And we do our best. The mistakes by Islamic regime is 
that they are trying to prolong the time, and if they feel that 
there is any danger in the world, nobody is going to ask us how 
to deal with them. But I am sure that Iranians' interests will 
be considered in this.
    There are two points. I know I have taken so much of your 
time.
    Twenty-six years ago, a few, a handful of Iranian students 
climbed the walls of the U.S. Embassy. For 444 days, they held 
hostage the American sons and daughters and brought shame to 
Iranian students. I promised myself once the opportunity is 
available on behalf of the Iranian students, as the leader of 
the Iranian student movement, to apologize for this insane 
crime to the people of the United States and the world.
    The second point is we realize that the nuclear issue of 
Islamic regime has really tired the whole world. This is a 
problem for the world population as well as the Iranian 
population. But the main point in Iran is different. This shall 
be a big problem for the entire world as well. The sick mind of 
the regime's man in charge, they teach the children in school 
how to make bombs and how to kill people. Our prisons are 
overflowing with political prisoners and breaking human rights 
widely. We hope that while you are paying attention to the 
nuclear dossier, we want these issues are not forgotten. For 
security even here in the United States, you need stability in 
the Middle East.
    Senator Coburn. You need to summarize for us, if you would, 
and complete your testimony.
    Mr. Fakhravar. Thirty seconds, sir. A change of regime to a 
secular democrat will help stability in the region and the 
world. We see what the Islamic regime has done with its support 
of Hezbollah in Lebanon and what crime has taken place. Please 
help us to remove the Islamic regime, and you can count on it 
that Iran will be one of the best friends and ally of the 
United States and the world.
    Senator Coburn. Thank you, Mr. Fakhravar.
    [Applause.]
    Senator Coburn. Mr. Berman.

    TESTIMONY OF ILAN BERMAN,\1\ VICE PRESIDENT FOR POLICY, 
                AMERICAN FOREIGN POLICY COUNCIL

    Mr. Berman. Thank you, Senator Coburn. That is a very hard 
act to follow, but I will try.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Berman appears in the Appendix on 
page 40.
---------------------------------------------------------------------------
    Let me talk a little bit from the American perspective. The 
one thing that I think we should emphasize here is that right 
now the United States is at a crossroads. We have a situation 
where the State Department's negotiating offer over the Iranian 
nuclear program, the one that was proffered in late May, has 
effectively ground to a halt. Certainly the Iranian regime is 
trying to extend the timeline that they have been given, but 
for all intents and purposes, this effort has failed.
    What we have now is a moment of reckoning when we need to 
look again at all of the policy options that are available to 
the United States for dealing with the Iranian nuclear program 
and the Iranian regime itself.
    A little bit of historical perspective is useful here. The 
State Department's offer is actually the third such effort over 
the last decade. Between 1994 and 1997, there was a process 
called ``critical dialogue,'' under which we tried to alter 
Iranian behavior through economic and political inducements. 
That failed spectacularly. Between 2003 and 2005, you had what 
you could charitably term ``critical dialogue redux,'' when the 
EU Three--France, Great Britain, and Germany--tried to do the 
same, specifically on the nuclear issue. And now you have this 
latest abortive offer coming out of the State Department.
    All of these offers failed because they fundamentally 
misread the political will of the Iranian regime to become a 
nuclear power. And future offers that neglect to understand 
this are going to meet the same fate. Also, I think it is 
useful to note that they also did not account for Iranian 
perceptions.
    I recently had the opportunity to travel to the Persian 
Gulf and have meetings with Iranian officials. I was astounded 
by what they told me. They told me that under no circumstances 
will the Iranian regime ``do a deal''--their words, not mine--
with the U.S. Government because they do not believe that 
American worries over the Iranian nuclear program are 
legitimate. Instead, they think that the nuclear issue is a 
foil that the Bush Administration is using to promote regime 
change within Iran.
    As such, they have little to no incentive to actually come 
up with some sort of negotiated settlement because, after all, 
if the nuclear issue is gone, there are just going to be 
others.
    The third thing that is useful to note with regard to the 
negotiating track is that there is a lot of opportunity costs 
that are associated with it. What we have really done by 
offering for the first time in 27 years direct negotiations 
with the Iranian Government is to send two messages.
    The first is to the Iranian leadership, and the message is 
as follows: We are so concerned over your nuclear effort, we 
are so concerned over your atomic program, that the other 
elements of your rogue behavior--your interference in Iraq, 
your support of terrorism in the Israeli-Palestinian, now 
Israeli-Hezbollah, conflict--all fall by the wayside. This is 
not an encouraging or a moderating sort of message to send.
    The second message that we have sent is to the Iranian 
people themselves, which is that our concern over one aspect of 
the Iranian regime's rogue behavior is so great that it has 
chilled our support for their desire for change.
    On the opposite end of the political spectrum, we have the 
idea of military action, and I certainly would second Mr. 
Fakhravar in saying that this is something that neither the 
Iranians nor the American people truly desire, for no other 
reason than the fact that it is likely to be profoundly self-
defeating. First of all, we have to account for the fact that 
there is likely to be a very grave asymmetric response from the 
regime because of how it is positioned in the region and 
because of the tools of their terrorist proxies and the tools 
that they can marshal to retaliate. But more than anything 
else, what you have is a situation where military action will 
likely create a ``rally around the flag'' effect that is likely 
to be profoundly self-defeating because it will strengthen, not 
weaken, the Iranian regime.
    So that leaves us with what I would like to call a triple-
track approach, and I think all of these should be pursued 
simultaneously.
    The first is economic pressure, and there are really three 
pressure points that we can bring to bear upon the regime. The 
first is foreign direct investment. The Iranian regime is 
dependent on foreign direct investment for continued oil 
production. They require about $1 billion annually to continue 
output at current levels, 2.5 million barrels a day export, and 
$1.5 million to increase that capacity. That is not a lot of 
money, and I think that should be understood. Iran has signed 
contracts worth dozens of billions of dollars with foreign 
powers over the last several years. With China alone, they 
signed two massive exploration and development deals worth $100 
billion over 25 years. A billion dollars is a drop in the 
bucket.
    But we can, through measures like multilateral sanctions, 
complicate their access to foreign direct investment and force 
them to dip into their hard currency reserves to continue their 
program. So we can slow it somewhat. But we cannot change the 
political will of the leadership itself to continue pursuing 
this program.
    The second is the economic hierarchy. Right now in Iran you 
have a situation where the vast majority of government funds 
and of government resources rests in the hands of very few 
people. And through measures like targeted sanctions, like 
travel bans, like asset freezes, we have the ability to take a 
large chunk of this money out of commission and really capture 
the conscience of the behind-the-scenes decisionmakers. Again, 
we cannot change their political will, but we can certainly 
telegraph to them that we are serious.
    The third and most promising economic point of 
vulnerability is commodities. Iran right now requires close to 
40 percent of its annual consumption of gasoline to come from 
abroad. This is at a cost of about $3 million a year. Moreover, 
Iran does not have a strategic gas reserve. Iran only has, 
according to authoritative estimates, about 45 days' worth of 
gasoline in-country, after which it becomes vulnerable. And 
that means that freezes on foreign exports of gasoline to Iran 
have the ability very quickly, much quicker than normal 
sanctions would, to affect both the ability of the regime to 
maintain the vast state subsidies on gasoline which currently 
exist, and also potentially these sort of commodity 
restrictions could create a situation where you have 
substantial social unrest in Iran.
    For the sake of brevity, I will not touch upon democracy 
promotion because my colleague, Dr. Ledeen, can certainly touch 
upon that for me. But what I would like to talk about as a 
concluding point is public diplomacy.
    Neither the nuclear effort, which right now retains a large 
amount of domestic popularity, nor the idea that the United 
States stands with the Iranian people in their desire for 
change can be telegraphed without an effective public diplomacy 
mechanism. And right now we have a situation where the tools of 
U.S. public diplomacy towards Iran, the Voice of America's 
Persian Service and Radio Farda, are simply not doing the job. 
You have a situation where $56.1 million at last count is 
heading towards the Broadcasting Board of Governors with no 
effective oversight. And the corporate culture that exists in 
those mechanisms today, ineffective programming, lack of 
strategic clarity, and sometimes even ineffective, mixed, or 
downright dangerous messages about American intentions, are 
likely to be amplified as a result of those funds if there is 
no governmental oversight.
    Certainly I will be less diplomatic than my colleague, but 
I do not think it is unfair to say that regime change in U.S. 
public diplomacy towards Iran needs to happen. And it needs to 
happen because the stakes are so high. All of these efforts are 
interdependent. The nuclear issue is the most pressing one. But 
over the long term, the only thing that can ensure that an Iran 
armed with nuclear weapons is not a threat is by changing the 
finger on the trigger, by changing the character of the regime 
itself.
    Thank you.
    Senator Coburn. Thank you. Dr. Ledeen.

 TESTIMONY OF MICHAEL A. LEDEEN,\1\ FREEDOM SCHOLAR, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Ledeen. Thank you, Mr. Chairman, Senator Carper, and 
Senator Dayton if he returns.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ledeen appears in the Appendix on 
page 46.
---------------------------------------------------------------------------
    Sadly, recent events, most notably the Iranian-sponsored 
war against Israel, have made this discussion more urgent than 
ever. But that is what happens when successive administrations 
for nearly three decades avoid dealing with a serious problem. 
It gets worse. The cost of dealing with it becomes more and 
more burdensome. The theocratic tyranny in Tehran is a very 
serious problem, and it is becoming graver. It has already cost 
a great number of American lives and an even greater number of 
innocent Iranians, Iraqis, Israelis, Lebanese, Argentineans, 
and others around the world. Now they are literally hell-bent 
to become a nuclear power.
    The Islamic Republic of Iran has been at war with us for 27 
years, and we have yet to respond. Fanatical Iranians overran 
the American Embassy in Tehran in 1979 and subjected diplomats 
to 444 days of confinement and humiliation. In the mid-1980s, 
Iranian-supported terrorists from Hezbollah killed hundreds of 
Americans in our Beirut Embassy and 6 months later killed 241 
Marines in their barracks there. A couple of years after that, 
Hezbollah took other Americans hostage in Lebanon from the CIA 
station chief in Beirut to Christian priests to a distinguished 
military man who had served as General Colin Powell's military 
assistant in the Pentagon. The priests were eventually 
ransomed; Mr. Higgins and Mr. Buckley were tortured and 
murdered.
    They have waged an unholy proxy war against us every since 
the revolution. They created Hezbollah and Islamic Hijad. They 
support most all the others, from Hamas and al Qaeda to the 
Popular Front for the Liberation of Palestine-General Command. 
Iran's proxies include Shi'ites, Sunnis, and Marxists, all 
cannon fodder for the overriding objective to dominate or 
destroy us.
    It is no accident that the weekend before the two-front 
attack on Israel, there was a security summit in Tehran, 
involving all of Iraq's neighbors, at which Iran's infamous 
President Ahmadinejad issued one of his trademark warnings to 
Israel. Perhaps he had a hint of what would soon explode.
    There are still those in Foggy Bottom, Langley, and 
academics who believe that somehow we can sort out our 
differences with the Islamic Republic. I wish they were right. 
But it seems to me that the Iranians' behavior proves 
otherwise. Religious fanatics of the sort that rule Iran do not 
want a deal with the devil. They want us dominated or dead. 
There is no escape from their hatred or from the war they have 
waged against us. We can either win or lose, but no combination 
of diplomatic demarches, economic sanctions, and earnest 
negotiations can change that fatal equation. It is not our 
fault. It is their choice.
    A few months ago, the CIA concluded that Iran could not 
produce nuclear weapons in much less than a decade, but given 
the history of such predictions, we should be very skeptical of 
that timeline. Some Russian experts reportedly think it could 
be a matter of months, and they probably have better 
information than we do.
    Numerous Iranian leaders have said that they intend to use 
nuclear weapons to destroy Israel, and contemporary history 
suggests that one should take such statements at face value. A 
nuclear Iran would be a more influential regional force, and 
since its missiles now reach deep into Europe, it would 
directly menace the West.
    I am the last person to suggest that we should not do 
everything possible to prevent the emergence of a nuclear Iran. 
But the nuclear question simply adds urgency to the Iranian 
threat, which is already enormous, and which should have been 
addressed long ago.
    The mullahs do not need atomic bombs to kill large numbers 
of Americans. They have done it with conventional explosive. 
They have long worked on other weapons of mass destruction, and 
they have an imposing network of terrorists all over the 
Western world. I am afraid that the obsession with the nuclear 
question often obscures the central policy issue: That the 
Islamic Republic has waged war against us for many years and is 
killing Americans every week. They would do that even if they 
had no chance of developing atomic bombs, and they will do it 
even if by some miracle the feckless and endlessly self-
deluding governments of the West manage to dismantle the secret 
atomic facilities and impose an effective inspection program. 
The mullahs will do that because that is what they are and it 
is what they do.
    The nuclear threat is, therefore, inseparable from the 
nature of the regime. If there were a freely elected, 
democratic government in Tehran, instead of the self-selecting 
tyranny of the mullahs, we would in all likelihood be dealing 
with a pro-Western country that would be more interested in 
good trade and cultural relations than in nuclear warheads.
    In other words, it is all about the regime. Change the 
regime, and the nuclear question becomes manageable. Leave the 
mullahs in place, and the nuclear weapons directly threaten us 
and our friends and allies, raising the ante of the terror war 
they started 27 years ago.
    What should we do?
    The first step is to abandon the self-deception that we 
will be able to arrive at a negotiated settlement. It cannot be 
done. The Iranians view negotiations as merely tactical 
enterprises in support of their strategic objectives. As you 
mentioned, Mr. Chairman, a few months ago, Hassan Rowhani, the 
mullah in charge of nuclear negotiations with the Europeans, 
bragged in a public speech that Iran had duped European Union 
negotiators into thinking it had halted efforts to make nuclear 
fuel while in reality it continued to install equipment to 
process yellowcake--a key stage in the nuclear fuel process.
    It could hardly be clearer, or so one would think. The 
``negotiations'' were merely a tactic.
    Nor is there any reason to believe we can count on the 
United Nations to impose the rules of civilized behavior on the 
mullahs, either on nuclear issues or terrorism. The supreme 
leader, Ali Khamanei, has told his associates that Iran now has 
a ``strategic relationship'' with Putin's Russia, and that 
China is so dependent on Iranian oil that it is highly unlikely 
Beijing would vote against Tehran in the Security Council.
    That leaves us with three courses of action, none of which 
is automatically exclusive of the others: Sanctions, military 
strikes, and support for democratic revolution.
    I do not know of a single case in which sanctions have 
produced a change in behavior by a hostile regime. Moreover, 
sanctions aimed against the national economy seem to me 
misconceived because they harm the people, who are highly 
likely to be our best weapon against the tyrants, while leaving 
the oppressive elite largely untouched.
    We should want to punish hostile regimes and help the 
people. Big-time economic sanctions or embargoes cannot do 
that, but very limited sanctions and other economic and 
financial actions can, although nothing is as effective in this 
case as the Iranian leaders themselves. Iranian debt has just 
been downgraded two levels to B-minus, putting Iranian paper 
now at the level of junk bonds. But I am very much in favor of 
seizing the assets of the Iranian leaders who have stolen 
billions from their oppressed and impoverished subjects. That 
money properly belongs to the Iranian people, whose misery 
grows from day to day. We should hold it for them and return it 
to a freely elected government after we have helped them 
overthrow their oppressors.
    I also support a travel ban on the leaders because it shows 
the Iranian people that we consider the mullahs unworthy of 
acceptance in the civilized world. Iranians know it better than 
we do, but they need to see that we have taken sides, their 
side, and the travel ban is one good way to do that.
    Military action. Nobody this side of the yellow press is 
talking about an invasion of Iran, but there is considerable 
speculation about limited strikes against nuclear facilities. I 
do not know enough to be able to offer an informed opinion on 
this matter. I would only point out that our intelligence about 
Iran has been bad since before the revolution of 1979, and you 
would have to be very optimistic to base a military plan on our 
current intelligence product.
    That leaves us with revolution. Iran has had three 
revolutions in the 20th Century and boasts a long tradition of 
self-government. The demographics certainly favor radical 
change: Roughly 70 percent of Iranians are 29 years old or 
less. Young Iranians want an end to the Islamic Republic. We 
know from the regime's own public opinion surveys that upwards 
of 73 percent of the people would like a freer society and a 
more democratic government, and they constantly demonstrate 
their hatred of the regime in public protests.
    Oddly, just as it was generally believed that there was no 
hope of a peaceful overthrow of the Soviet Empire, today the 
conventional wisdom intones that there is no hope for 
democratic revolution in Iran, and even if there were, we would 
no longer have enough time for it, as if one could fine-tune a 
revolution.
    This pessimism strikes me as bizarre as it is discouraging. 
We empowered a successful revolution in the Soviet Empire with 
the active support of a very small percentage of the 
population. In Iran, revolution is the dream of at least 70 
percent of the people. The regime is famously vicious, but the 
KGB was no less vicious, and tyranny is the most unstable form 
of government.
    Nobody knows with certainty whether revolution can succeed 
in Iran or, if it can, how long it will take. But we do know 
one very important thing. In recent years, a surprising number 
of revolutions have toppled tyrants all over the world. Most of 
them got help from us, which should not surprise Americans. We 
got plenty of help against the British. The Iranian people now 
await concrete signs of our support. Thank you.
    Senator Coburn. Dr. Takeyh.

TESTIMONY OF RAY TAKEYH,\1\ SENIOR FELLOW, MIDDLE EAST STUDIES, 
                  COUNCIL ON FOREIGN RELATIONS

    Mr. Takeyh. Thank you, Mr. Chairman, for inviting me back 
to the Subcommittee. I will try to confine my remarks to the 
allotted 5 minutes so as to not tax your patience.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Takeyh appears in the Appendix on 
page 54.
---------------------------------------------------------------------------
    Senator Coburn. I will be very lenient. We have been thus 
far, and we will continue to be.
    Mr. Takeyh. Thank you. What I will try to do in the time 
that is allowed to me is discuss the internal factional 
opinions within the regime on the nuclear issue, whether there 
are debates, disagreements, and what that implies for the 
future, of course, of the nuclear diplomacy that is at hand, 
and, finally, what is to be done at this late date. And I would 
like to begin with two cautionary notes.
    First of all, there is a considerable degree of opacity 
over Iran's national security decisionmaking, particularly on 
issues as sensitive as nuclear issues, so there is much that we 
do not know. And much of what we say is speculative, but 
hopefully it is informed speculation.
    Second of all is, as we proceed down that track, we have to 
be cautious that perhaps Iran's nuclear ambitions may not be 
subject to diplomatic mediation. There might not be a deal out 
there that is satisfactory to the sort of international 
community and the standards that we have set, namely, no 
enrichment capability.
    But having said that, let me just outline the opinions as I 
understand them, given the limits that we have at our disposal.
    Today in the Iranian regime, I would suggest that the 
debate is between two factions, and you can call them the hard-
liners and real-hard-liners, in the sense that this is a debate 
that takes place on the margins of the extreme right. For the 
real-hard-liners that are represented by the President of Iran 
and individuals in the security services, the Revolutionary 
Guards and so forth, I suspect that their approach to the 
nuclear issue is conditioned by a mixture of wariness and 
nationalism. Their bitter experience of the Iran-Iraq war, at 
which many of them were participants at that age, has led to 
cries of ``Never again,'' uniting their veterans turned 
politicians behind the desire to achieve not just a credible 
posture of deterrence, but potentially a convincing retaliatory 
capability.
    After decades of tension with America, Iran's reactionaries 
perceive conflict with the United States as inevitable, and 
that the only manner by which America can potentially be 
deterred is through the possession of strategic weapons--the 
nuclear weapon.
    Given their suspicion and their paranoia, the hard-liners 
insist that America's objection to Iran's nuclear program does 
not stem from the proliferation, and I think some of that was 
mentioned by the previous speakers, but it is opposition to the 
character of the regime. They argue that should Iran acquiesce 
on the nuclear issue, then there will be another issue with 
which America try to coerce and punish Iran. Therefore, given 
such views, there appears limited incentive to compromise on 
such a critical national issue since acquiescence will not 
measurably relieve American pressure. So there is a core 
suspicion by which they approach the United States and issues 
of the nuclear diplomacy.
    The second faction, which, for lack of a better term, one 
can call less ideological and more realist, but certainly is 
hard-line, is curiously enough led by one of the more curious 
individuals within this regime, the head of the Supreme 
National Security Council, Ali Larijani. For Larijani and many 
other sort of the hard-line realists, the Islamic Republic has 
offered a rare and perhaps a unique opportunity to establish 
its sphere of influence in the Persian Gulf. For centuries, 
Iran's monarchs and mullahs perceived that given their 
country's demography, civilizational achievements, historical 
position, they had a right to become the preeminent power in 
the Gulf. But due to machinations of the global empires and 
certainly other hegemonic powers, those ambitions were unjustly 
thwarted. Today, as Iran's hard-liners or politicians look at 
the Middle East, they perceive an America, a crestfallen 
America eager for an exit strategy out of its Arab predicament, 
an Iraq preoccupied with its own simmering sectarian conflicts, 
and a Gulf princely class more eager to accommodate rather than 
confront Iranian power. Therefore, they suggest a judicious 
Iran, a less provocative can achieve its long cherished 
aspiration of dominating the critical waterways of the Persian 
Gulf.
    A careful examination of Ali Larijani's speeches reveals, 
strangely enough, his suggestion of India as a potential model 
for an aspiring regional power. India's reasonable relationship 
with America has allowed it to maintain both its nuclear 
arsenal and also dominate its immediate neighborhood. In 
contrast, a Russian Federation that is at times at odds with 
the United States finds that its aspirations to control its 
``near abroad'' are often checked by a skeptical America. So if 
you are aspiring for which regional power you want to be like, 
maybe India offers a better model. Although the United States 
presence in the Middle East is bound to diminish, for Iran's 
hard-line realists American power can still present a barrier 
to Tehran's resurgence. Although this faction does not seek 
normalization of relations with the United States--and I do not 
think any faction does--it does sense that a less contentious 
relationship with America may ease Washington's distrust, 
paving the way for the projection of Iranian influence in the 
Gulf.
    As such, for the realists, the nuclear program has to be 
viewed in the larger context of Iran's international relations 
and regional aspirations. Once more, India being the model of a 
country that should improve its relations with the United 
States, it may obtain American approbation of its nuclear 
ambitions. Although they are disinclined to dismantle the 
nuclear edifice--and I do not think we can get to ``no 
enrichment capability''--they do sense the need for restraint 
and the necessity, at least for now, of adhering to Iran's 
long-standing NPT obligations. And NPT is a treaty that allows 
you to do much within its restrictions.
    What is to be done? It is a question that is often asked. 
It is almost impossible to answer satisfactorily, and it is not 
going to be answered with any degree of satisfaction for me.
    In May 2006, Secretary Rice took a step in revising 
America's approach to Iran. In a unique step, she proposed 
direct talks with Iran over its nuclear program. The 
Administration, in my view, judiciously insisted on suspension 
of nuclear enrichment activities as a precondition for those 
talks. Despite the fact that this is a bold reconceptualization 
of American policy, it tends to miscast the disagreement 
between Iran and the United States as a disarmament dispute. 
The only manner of resolving this issue is through 
comprehensive discussions that deal with the totality of 
American and Iranian concerns.
    The United States and Iran both need to move one step 
further and discuss negotiations that encompass not just Iran's 
nuclear ambitions, but Iraq as well as terrorism. To me, it is 
impossible at this point to have any degree of negotiations 
with the Iranian regime that are segregated and limited to the 
nuclear issue, given what has transpired on the Lebanese-
Israeli border.
    Iranians have their own concerns--sanctions, suspension, 
frozen assets--and those should also be on the table. As both 
parties become satisfied with the content of the negotiations, 
satisfied that they encompass all their concerns, then perhaps 
an agreement can be reached. The diplomatic framework that I 
outlined views the nuclear issue as a symptom of a larger U.S.-
Iranian malady and tries to address the root cause of those 
animosities. Only through a fundamental transformation of U.S.-
Iran relations can we arrive at a satisfactory solution to 
Iran's nuclear imbroglio.
    But this is a dynamic issue. As it moves forward, then 
Iran's program crosses successive thresholds, and it may be 
impossible to reverse. Therefore, we should proceed with 
caution, if not alacrity. And I will stop right there. Thank 
you.
    Senator Coburn. Dr. Walsh.

     TESTIMONY OF JIM WALSH,\1\ SECURITY STUDIES PROGRAM, 
             MASSACHUSETTS INSTITUTE OF TECHNOLOGY

    Mr. Walsh. Mr. Chairman, Senator Carper, it is an honor to 
appear before you today. My comments will focus on the nuclear 
issue, and let me offer to you, if you have following this 
hearing additional questions that you would like me to respond 
to in writing, I would be happy to do so.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Walsh appears in the Appendix on 
page 59.
---------------------------------------------------------------------------
    Let me begin by way of background. I was invited, I think, 
to speak here today in part because over the past 2 years I 
have been engaged in a series of Track II discussions--
discussions between Americans and Iranians, mostly being held 
in Europe and mostly focused on the nuclear issue. I returned 
just this past Saturday from Stockholm, where a group of 
Americans, mostly former officials, and Iranians were meeting 
to discuss the events that confront us.
    Between those meetings and my own travel to Iran, I have 
spoken to or met with over 100 Iranians. Most of those are from 
the conservative and technocratic class, and let me just 
briefly summarize that point of view, because it is important, 
as the previous speakers have pointed out, to realize that 
there are many factions in Iranian politics, and factions with 
different agendas and different points of view.
    The conservative technocrats that I mostly speak to dislike 
U.S. policy and they dislike the policy of President 
Ahmadinejad. They hope to avoid what they perceive is a lose-
lose conflict between the United States or the West more 
generally and Iran. They see that there will be costs to a 
confrontation, but they think costs will be borne by all 
parties, and they hope to avoid that.
    They believe that escalation of this crisis actually 
increases the risk of nuclear weapons development; that as 
feelings harden and as the domestic politics of this issue play 
to the pro-nuclear side, that it gives more leeway for those 
who are advocates of nuclear weapons to be able to pursue that 
policy in a more overt manner. And they have deep mistrust and 
suspicion of U.S. Government motives. They think that the 
United States is about regime change, but they have affection 
for the American people, and most of them studied here or have 
relatives here.
    With that as background, let me speak more specifically to 
the nuclear ambitions and nuclear decisionmaking, and I endorse 
all the comments of the previous witness.
    One of those comments he made is important, and that is 
that there are multiple players here with multiple ambitions. 
There is the supreme leader, who I think by consensus most 
would agree is the most important policy actor. It is not the 
president, but the supreme leader who is the final arbiter of 
nuclear weapons policy. The most active person on nuclear 
weapons--or nuclear policy, I should say, rather than nuclear 
weapons policy, is Ali Larijani from the Supreme National 
Security Council. He is the person who is working on it day to 
day. The president has weighed in and at times appropriates 
that issue and speaks publicly on it, I think for his own 
domestic political purposes. He is for the most part a domestic 
president elected on populism and economic issues, not foreign 
policy issues, but he will play to these and the Israel issue 
as he sees that it benefits him politically.
    He is tied to the Iranian Republican Guard, which is 
broadly seen as being more pro-nuclear weapons, but there is 
very little data on this. And then, finally, there is the 
nuclear bureaucracy itself, the Atomic Energy Organization of 
Iran, and if nuclear history tells us anything, the history of 
nuclear weapons decisionmaking is that these bureaucracies 
often have an important role to play, and I am sure that is the 
case here, although the data is limited.
    The common policy denominator for all these players with 
all these agendas is they want a complete fuel cycle. Now, I 
think that they are willing to see restraints on the 164 
cascade or some research level of centrifuges. But they want to 
have something, and that is their new--well, it is not new, but 
that is their bottom line. But I think they are willing to 
compromise on the parameters of that and the environment in 
which that small cascade functions.
    This program, as I see it, is driven primarily by national 
pride and bureaucratic and domestic politics, not security. It 
is, therefore, closer, historically speaking, to nuclear 
programs in France and India, which, again, were driven by 
national pride and bureaucratic, less like the programs of 
Pakistan or the DPRK, where there is a security component.
    Nuclear technology is, unfortunately, a priority for the 
regime and for the population now, but it is not their most 
important priority. They really seek recognition on the world 
stage and economic development, and there are multiple sources 
of power in play, from the Grand Ayatollahs to the Majliis, to 
Rafsanjani and his residual influence, to public opinion. And 
as my written remarks indicate, public opinion is often the 
least understood of those power centers.
    As to the nuclear negotiations themselves, I think 
Secretary Rice's initiative has improved the U.S. position, and 
the President deserves credit for it, and polling data suggest 
that the American people are happy with this policy, perhaps 
happier with this policy than any other foreign policy of the 
President. Unfortunately, Iran appears to have missed the 
significance of the Rice proposal--that based on discussions 
that I have had. They have focused more on suspension as a 
precondition and missed the larger statement about the United 
States willing to join the talks and some of the other elements 
of the proposal. My hope is that those are being communicated 
to policy circles in Iran now.
    The Iranians want to keep some face-saving level of 
enrichment. In their ideal world, they would have a full, 
complete fuel cycle, but I think they recognize that they 
cannot have their cake and eat it, too. They cannot achieve 
their economic and prestige objectives and at the same time 
have a provocative nuclear program.
    Will the talks succeed? I think it is too early to say. I 
do expect an announcement on August 22. The announcement by 
Larijani today, as you probably saw in the newspaper, does not 
forebode a negative response. The Iranians that I have been 
speaking with recently suggest that Iran will respond by either 
accepting the proposal, offering a conditional yes, a yes-but, 
or a condition no, a no-but. But in any case, the answer is 
likely to set the stage for future negotiations.
    As for policy options, we all know what they are. We can 
try to coerce them or isolate and contain them. That is 
basically what we have done through the Clinton and Bush years, 
and to, I think, little effect. We can use military force, but 
I think that will be extremely costly, for reasons described in 
my testimony, and will put in jeopardy the number one U.S. 
policy goal today, which is success in Iraq. If we strike Iran, 
we will have to put more U.S. soldiers in Iraq for a longer 
period of time.
    And so that leaves very little in the way of alternatives 
other than negotiation. But my hope is that we will improve the 
negotiation track by focusing more on the issue of national 
pride, by seeking to identify and win over particular 
bureaucratic and internal constituencies, and that if we are 
going to say that all options are on the table, then all 
options need to be on the table, and that includes direct talks 
with some distant possibility for normalized relations.
    Finally, I think we need to approach this problem, as all 
the witnesses agree, not as issue-by-issue but in a broader 
strategic context. That is, I think, the only way out of here.
    Let me conclude with comments about the role of Congress. I 
believe that one of the reasons why I am so happy to be here 
with you, Mr. Chairman and Senator Carper, is I think that the 
role of Congress will be critical. It will be needed. If there 
is a negotiated settlement, Congress will have to act on issues 
of sanctions and legislation and funding. If there is not, 
Congress will be needed just as much.
    As we go forward, I think Congress can, in addition to its 
normal duties in terms of information collection and oversight, 
which are critical, I would suggest that it can be a policy 
innovator as well. And, in particular, two things briefly. One, 
smart engagement. Many of the Iranians I spoke with in Iran 
want to come to the United States. They tend to be the youngest 
and the most conservative who come up to me and complain to me 
after I give a speech in Iran, they come up and hector me about 
the United States and then sort of classically say, ``Oh, and 
by the way, is it possible to come and study in the United 
States?'' But people who want to come to the United States, who 
want to take advantage of opportunities to come and to study, 
and whatever, feel they cannot take advantage of current 
programs that are labeled under a category of regime change. 
That puts them at personal risk if they do that. So we need 
smart engagement that gives people the opportunity to come to 
the United States and us to go there in ways that do not taint 
them for having taken up that opportunity.
    And, finally, I would like to propose to you that you 
consider legislative-to-legislative contacts, contacts between 
the U.S. Senate and the Majliis. I think now that the Senate 
Foreign Relations Committee has explored this in the past, and 
Iran has refused to respond to that initiative. I am told that 
views are changing on that and that in the near term it may be 
possible for members of the Majliis and the Senate to meet 
together to talk about what divides us, and also areas for 
potential cooperation. And I would encourage you to take that 
opportunity if it does develop.
    Thank you very much.
    Senator Coburn. Thank you.
    Mr. Fakhravar, Dr. Takeyh's testimony claims that the 
regime of Iran entertains debates across the political 
spectrum, from his written testimony, regarding Iran's nuclear 
program. What has been your experience with trying to freely 
dialogue and debate the Iranian regime's quest for nuclear 
weapons or any other political topic?
    Mr. Fakhravar. There is nobody to negotiate with in the 
regime in Iran. That is their tactics, has been, so you don't 
know whom you are talking to. You have experienced the 
negotiations and nuclear dossier of Iran, and there are several 
of them, and none of them have the final say. That is exactly 
their tactic.
    Senator Coburn. More specifically, when you discuss as a 
student activist these issues and you raise the questions, what 
is the response from the regime when the students raise the 
questions, whether it be about this or any other political 
subject? Whether it be about nuclear issues or any other 
subject, what is the response of the regime to the students who 
raise questions or question the policies?
    Mr. Fakhravar. When the students and the people of Iran 
learn that there is a possible negotiation between the United 
States and the regime, the entire people will consider you as 
betraying them.
    Let me put it bluntly. If you can play chess with monkeys, 
then you can negotiate with the man in charge of Islamic 
regime. Thank you.
    Senator Coburn. One of our policies--and this is addressed 
to anybody on the panel that wants to answer it. In the 1990s, 
we followed a negotiation stance with North Korea, and all 
during that period of time when we were negotiating and had 
agreements, the fact is that those agreements were not being 
honored. Progression on nuclear weapons development continued 
regardless of what we did.
    Can anybody think of a time where negotiations have proved 
successful, in terms of hostile regimes, in terms of bringing 
about the desired result on nuclear weapons or other results? 
Go ahead, Dr. Walsh.
    Mr. Walsh. Thank you, Mr. Chairman. Let me offer first a 
direct answer and then maybe a slightly different view of the 
DPRK issue, something I have spent some time on. I was in 
Pyongyang last summer.
    Certainly the Soviets were a hostile empire, and certainly 
we can point to any number of arms control agreements with the 
Soviets, most notably the treaty preventing ABM, the ABM 
Treaty, that the Soviets followed and that enhanced the 
security of the United States, in part because it allowed 
countries--it allowed the United States and the Soviet Union to 
avoid the more dangerous aspects of the arms race and to 
provide some predictability and stability to it.
    I would argue the Nuclear Nonproliferation Treaty has been 
one of the most successful treaties in human history. The rate 
of proliferation has declined since the 1960s--not increase but 
declined--and the number of states that are interested or 
seeking nuclear weapons is smaller since any decade since the 
1940s.
    Let me conclude by saying on the DPRK my view is that the 
Agreed Framework was a success. That Agreed Framework is about 
three and a half pages long, and when you read it, you see that 
neither side followed through on their original commitments, 
but that program was frozen. There were no new nuclear weapons 
built under the Agreed Framework. That ended and that has no 
longer been true. North Korea did go behind the back of the 
agreement to engage in procurement activity related to an HEU 
plant, but neither the CIA nor any other U.S. intelligence 
agency, none of them have concluded that the DPRK built an 
enrichment plant. And during the period of the agreement, that 
plutonium reactor was frozen and there were no new nuclear 
weapons being built during that period.
    Senator Coburn. If I recall my history correctly, it was 
Reagan walking away from the negotiations that broke the back 
of the Russians' nuclear development. It wasn't negotiating. It 
was walking away from the negotiation if you will recall the 
history and the criticism that he received.
    Dr. Takeyh, you wanted to comment on that?
    Mr. Takeyh. First of all, I want to clarify the portion of 
my testimony that you alluded to. What I was trying to suggest 
in that is, in terms of the nuclear deliberation, all political 
tendencies, the reformers and others, are brought to the table, 
the leadership of the different factions, even those which are 
not necessarily in power today. I was not suggesting that the 
Islamic Republic puts its nuclear decisionmaking out for a 
referendum or having sort of brought in activism. So there is 
more of an elite debate. But, nevertheless, it is elites from 
across the political landscape.
    In terms of negotiations that are successful, as Mr. Walsh 
was suggesting, in the 1970s the United States negotiated 
several arms control agreements with the Soviet Union, SALT I 
in particular, and also the Reagan Administration negotiated 
the INF agreement in 1986, which was the first agreement that 
actually did not regulate the size of nuclear arsenals, but 
suggested elimination of a certain class of weapons.
    But when you are dealing with nuclear negotiations, it is 
important to suggest that they cannot be segregated from the 
overall relationship between the two adversaries. When U.S.-
Soviet relations were reasonable during the period of detente 
in the 1970s, then nuclear negotiations actually expedited and 
there was agreement on a variety of issues. When the 
relationship was not necessarily, as it was in the early 1980s, 
then actually the arms control negotiations always break down.
    So you have to situate nuclear negotiations in the larger 
context of relations between the two countries. That is why I 
do not believe the United States and Iran at this particular 
point can easily reach a nuclear accord barring dealing with 
other areas of concern that they have--that we have and they 
have. So the canvas has to be broadened in order for 
negotiations to be successful.
    Senator Coburn. Would you comment on the fact in your 
testimony related to India, India is not a theocracy.
    Mr. Takeyh. Sure.
    Senator Coburn. And the fact is India's leaders do not 
threaten death to anybody who does not believe the way they 
believe, or the so-called U.S. infidels, that we should die. So 
the context of nuclear weapons in the hand of somebody whose 
axiom is that if you are not with us in terms of your religious 
beliefs and your behavior along those religious beliefs, you 
obviously should perish according to a theocratic viewpoint.
    It is hard--and I guess the further point to my question 
is: Can that not be understood in terms of the decisionmakers 
among the Iranian elite or the hard-lines and very-hard-liners, 
as you described them, can that not be understood as we would 
have trouble having a rational basis for--understanding that 
there might be a motivational difference between those that 
were running the Soviet Union and those that are presently 
leading Iran?
    Mr. Takeyh. Yes, I think that analogy that the regime uses, 
or some of the regime uses, that Iran can potentially follow 
the model of India is wrong, for all the reasons that you 
suggested. But, nevertheless, it is their rationale that they 
embrace. Iran is not India, and I was not suggesting that they 
are analogous. India is a democratic regime. It is largely 
peaceful in terms of its intentions. And Iran is neither of the 
above.
    However, when certain members of the regime look at India 
and they see the way an aspiring regional power can have 
influence in terms of its region, it is to negotiate a 
different type of relationship with the United States.
    Now, there is a contradiction in that. I do not believe--
there is a huge contradiction in that, in the sense that the 
India model applied to Iran fails not only because of the 
domestic complexion of the Iranian theocracy, but also because 
it is unlikely that any American administration would be 
sanguine about the possibility of Iran having that sort of a 
nuclear technology at its disposal and edging closer to the 
weapons program. So I don't think the India analogy works, but 
it is the one that I was suggesting certain members of the 
Iranian elite hierarchy tend to embrace.
    Senator Coburn. But who are not in ultimate control.
    Mr. Takeyh. Well, they can be in control. They are part of 
the landscape. But I do not believe Iran is going to follow the 
model of India in terms of its domestic politics, in terms of 
its democratic processes, no.
    Senator Coburn. It is my understanding that Amir Fakhravar 
will have to be leaving here shortly. Do you have any questions 
for him, Senator Carper?
    Senator Carper. I do.
    Senator Coburn. OK. Why don't we let you have an 
opportunity to do that before he leaves, and I will defer my 
further questions.
    Senator Carper. Thanks, Mr. Chairman.
    Mr. Fakhravar, thank you for your testimony today. The U.S. 
Congress has provided almost $100 million for democracy 
promotion in Iran over the course of the last 3 years, I 
believe with the largest installment of funding coming in the 
current year. There have been calls in Congress for this 
funding to be provided to democratic organizations within Iran. 
However, in the past, some of those groups have actually ended 
up on a State Department terrorist list.
    There is also the concern that giving the United States 
money to authentic groups would lead them perhaps to be 
targeted by the current regime in Iran.
    Last, it is also being said that Iran is not ripe yet for 
change, and so giving this money to groups could simply be a 
waste of money.
    You have previously stated that you are only one of many 
individuals to fight for a more open society in Iran. Based on 
this assertion, I have several questions relating to prospects 
for change in Iran. And let me just ask these questions, and I 
will ask you to respond very briefly, because apparently your 
time is limited and because we would like to ask questions of 
other witnesses.
    The first question is: How do you visualize an ideal Iran? 
What would be the structure of its religious, its economic, its 
social, and governmental institutions? Is there anyone else in 
Iran with economic and political power that holds the same 
vision for Iran as you see it? And, again, I would ask that you 
just respond briefly.
    Mr. Fakhravar. First of all, thank you, and I would like to 
close the discussion down here about the negotiations. North 
Korea is way off the area of the strategic, both India and 
North Korea. Iran is not. And I highly suggest those who 
consider negotiations to do consider these facts.
    None of these two nations are after wiping Israel off the 
face of the map. Allocating funds is something and using it is 
another thing. The system that we wish for Iran, future Iran, 
is secular democratic. It is not important that it is going to 
be a republic system or a constitutional system. It is 
important for Iranian population that it would be secular. 
Majority of Iranians are Muslim. I, too, am a Muslim. But I am 
not a terrorist. People of Iran are not terrorists. But the 
Islamic regime, people in charge of the Islamic regime are.
    Senator Carper. OK. Thank you.
    Can you tell us who or what organizations or people are 
currently leading the fight against the current regime in Iran? 
And can you provide us with an estimate of how many people or 
what percentage of the population that might be?
    Senator Coburn. I would like to interrupt here. You should 
be very cautious--you are in a public hearing--in how you 
answer that question because you may put some of your 
compatriots at risk.
    Senator Carper. I will say the question again. Can you tell 
us who or what organizations are currently leading the fight 
against the current regime in Iran? And can you provide us with 
an estimate of how many people or what percentage of the 
population that might be?
    Mr. Fakhravar. The first front line is comprised of Iranian 
students. That is mostly youth, and we have 70 percent under 
the age of 29, 30; 64 percent in the movement, the next group 
is women's movement, which is 64 percent. Their rights are 
violated and they are abused. We would like to take these two 
movements and bring them together, unify them. There are many 
groups right now, but what we are planning to do, to bring all 
the groups together. For that purpose, we are organizing 
Confederation of Iranian Students so they would bring this 
together, this unification.
    Senator Carper. All right. One last question for this 
witness. And, again, we thank you for your testimony and your 
response to our questions. You stated that you would like to 
see the United States provide a variety of things. I believe 
you mentioned laptops, cell phones, workshops for training 
resistance support, both outside and within Iran. What would be 
the expected outcome of such assistance? And how soon might we 
expect to see some change as a result of that assistance?
    Mr. Fakhravar. Iranian population are very bright, but they 
do not receive accurate news. We need to talk to our people. 
Certainly we can make them aware of the news in the world. 
Eight to ten a year is what the time limit, I would say, 8 
months to a year Eight months to a year. I apologize.
    Senator Carper. Do Iranians have access to the Internet?
    Mr. Fakhravar. Very limited, in big cities. We need to 
expand on that.
    Senator Carper. OK. Thank you very much.
    Senator Coburn. Amir, I want to wish you Godspeed. I know 
you are going from here to meet with President Bush. He has 
great esteem for you and your courage, and we wish you Godspeed 
and good luck.
    Mr. Fakhravar. I thank you and the great Nation of the 
United States.
    Senator Coburn. Would you like to continue on with your 
questions, Senator Carper, of the other witnesses?
    Senator Carper. If I could, thanks.
    Senator Coburn. We will come back, and then you will be 
next.
    Senator Carper. Thanks very much.
    I would just ask very briefly of each of our witnesses, 
could you just take a moment and describe your visits to Iran 
in the last, say, decade, their frequency, the duration, how 
long were you there, the nature of the exchanges, who you met 
with, that sort of thing? And, Dr. Walsh, we will start with 
you, if you would, please.
    Mr. Walsh. Well, Senator, most of the Track II discussions 
I have with Iranian officials, academics, and think-tank 
personnel occur outside of Iran, usually in Europe--in Italy or 
in Sweden. And I participated over the past several years in 
four to five of those Track II's.
    In February, I was in Iran for 12 days where I met a 
variety of people, mostly, as I said in my testimony, people 
who fall into the conservative, technocratic class, people who 
probably voted for Rafsanjani rather than Ahmadinejad. And I 
will be returning to Iran in the fall.
    All told, as I indicated in my testimony, I have probably 
met or spoken to about 100 Iranian officials, former officials, 
academics and think-tank types.
    Senator Carper. Thank you.
    Mr. Takeyh. I would suggest mine was similar to Mr. Walsh's 
in the sense that they have been a lot of former officials in 
Track II settings. In my case, there are some family members 
that I have, of course, being of Iranian descent. And I was 
supposed to go working on a trip to Iran this August, so we 
will see if it comes through or not.
    Senator Carper. All right. Thank you. Mr. Ledeen.
    Mr. Ledeen. I have never been to Iran. I have met with 
senior Ayatollahs from this regime, in the mid-1980s, and with 
no end of Iranians since then from all walks of life, some pro-
regime, some anti-regime, most recently in Rome in 2001.
    Senator Carper. All right. Thank you. Mr. Berman.
    Mr. Berman. Like Dr. Ledeen, I have never been to Iran, but 
I have traveled many times to the Middle East. Most recently I 
have traveled to Persian Gulf 3 weeks ago to Oman to attend an 
international conference at which I had the opportunity to meet 
with Iranian officials.
    Senator Carper. Senator Coburn and I were privileged to be 
in a discussion earlier today with some of our colleagues and 
others, and I had an opportunity to talk about the 
Administration's proposal for multilateral talks with the 
Iranians. And to the extent that they are willing to give up on 
their desire to enrich uranium, we would be willing to enter 
into those multilateral discussions. And I understand that when 
that offer was presented to the Iranians, it was presented with 
a number of incentives and with the understanding that there 
would be disincentives or sanctions if the Iranians chose not 
to accept it.
    Let me just ask you, again, your views. Was that an 
appropriate thing for the Administration to do? Was it the 
right thing? Or was it a mistake? Dr. Walsh.
    Mr. Walsh. I think it was very wise, very prudent, for two 
reasons. If you think that negotiations have a shot, the only 
way they are going to be successful is if the United States 
sits at the bargaining table one way or another. We cannot 
outsource our foreign policy to others. Iran is not going to 
take as credible promises of incentives unless the United 
States is directly part of that process.
    One of the problems with critical dialogue that the 
Europeans carried on in the past is the United States was not 
at the table, and it was clear they were skeptical of the 
process. So you need to be able to make credible threats and 
credible promises. If you do not make a credible promise, the 
other side is not going to play because they figure you are 
just playing them for a fool, and a lot of Iranians are deeply 
suspicious.
    But if you do not think negotiations are going to work, 
Secretary Rice's announcement was still a wise move because 
diplomatically it put her in a stronger position to get the 
Russians, the Chinese, and others on board. So all around, I 
think it was an excellent move, and as I said in my comments, 
it is a move that has the support of the American people.
    Senator Carper. Mr. Takeyh.
    Mr. Takeyh. I would agree with that. Actually, however, if 
I was to critique the negotiating track, as I mentioned in my 
comments, I would suggest that the issues under consideration 
should be broader in the sense that the totality of American-
Iranian disagreements exceed the nuclear issue. There are 
issues of terrorism; there are issues that they have with us 
that are not exclusive to the nuclear issue.
    Beyond that, I think where the Administration was in the 
spring of 2006 was that they were in a situation which was 
untenable in the sense that the negotiations at the U.N. had 
stalled and it was unlikely to go further without some sort of 
an American measure, and that measure was quite a momentous 
measure in the sense that it revised not just Bush 
Administration policy but 27 years of American policy. So I 
think that aspect of Secretary Rice's rather remarkable 
reconceptualization of U.S. foreign policy toward Iran has 
often been neglected.
    Now, where it goes from here is hard to read because I 
think ultimately we are settling into a number of red lines. 
Iranians have a red line that calls for them to have some sort 
of an enrichment capability. Americans at this point, we have a 
red line that they should not have that. Whether that 
difference can be bridged in the next several months will 
reflect the ultimate success of these negotiations, but it 
remains to be seen.
    The other criticism I would make is that the offer of 
negotiations may have come a little late in the sense that, in 
2002, if these negotiations had taken place, there was no 
enrichment capability, and perhaps we could have gotten a no-
enrichment deal. But the nuclear program, as Mr. Walsh knows 
very well, is a dynamic issue, and as countries develop those 
technologies, they in essence become in some cases 
irreversible. So earlier would have been better. It is late, 
but it may not be too late.
    Senator Carper. Thank you.
    Senator Coburn. Senator Dayton.
    Mr. Ledeen. May I?
    Senator Coburn. Yes, I am sorry. Dr. Ledeen.
    Mr. Ledeen. Yes, I would like to make two comments on the 
question of negotiations. The first is you should not believe 
that there have not been negotiations. There have been talks 
endlessly. Most of them have been secret, let's call them. 
State Department people have talked to counterparts in Iran. 
CIA people have talked to counterparts in Iran. At least to my 
knowledge, all through the first term of the Bush 
Administration talks were going on all over the place because 
there were people in the State Department, primarily Richard 
Haas, who believed that we were on the verge--we had a historic 
opportunity, we could reach a grand bargain with Iran and this 
was the moment to do it. And so talks were going on. They have 
been going on.
    If you read Pollack's book, ``The Persian Puzzle,'' which 
was written by a person who spent a long career in diplomacy 
and at the CIA, he says there categorically we have tried 
everything. We have tried intimidating them. We have tried 
threatening them. We have tried cajoling them. We have tried 
offering them. And they have rejected it all. And the 
conclusion he came to--and this is a person who labored all his 
professional life to accomplish some kind of agreement with 
Iran--and believe me, broad issues, they talked about 
everything. He said, ``They don't want it.''
    It is really baffling to me that after 27 years it is 
impossible for serious persons to say they have declared war on 
us. They declared war on us 27 years ago. They have been waging 
war against us for 27 years. They are killing us today, as 
often and wherever they can. Those IEDs that blow up our 
soldiers in Iraq, they come from Iran. Those intelligence 
officers and revolutionary guards, they are Iranians. They are 
doing everything in their capacity to do that. So we have had 
talks all along, and I do not see where it is going to go.
    The real question, if you will permit me, is where is 
American policy on it. We yet have no Iran policy. We have a 
nuclear issue policy. All the talk is about nuclear this and 
that. All the talk is about will we permit the Iranians--are 
they going to stop enrichment and so forth. And along those 
lines, I believe, the Iranians will never give up their nuclear 
program because it is not an enrichment program and it is not 
for national prestige. It is a weapons program, and they want 
it to be able to defend themselves and to launch aggression 
against other countries. They concluded--and we know this--in 
1991 that if Saddam had had nuclear weapons, we would never 
have dared do to him what we did in the first Gulf War. And 
they said, ``We do not want that to happen to us; therefore, we 
must have nuclear weapons.'' And the program that started then 
was a weapons program. And I believe it is still a weapons 
program. And I think even by now El-Baradei knows that it is a 
weapons program, and one of his assistants just quit in a rage 
and went to the press and said, ``They won't let us into any of 
the military facilities that we want to see.'' And it is 
obvious that it is a military program.
    What we have got is a negotiation on an issue that 
distracts our attention from the central issue between the 
United States and Iran, which is they are waging war against 
us.
    Thank you.
    Senator Coburn. Thank you. Mr. Berman.
    Mr. Berman. Thank you, Chairman Coburn. Just a couple of 
points.
    I would say the following: Whether or not negotiations are 
a good idea or a bad idea depend entirely on who you are 
talking to. And what is useful to remember here is that, as Dr. 
Ledeen pointed out, there is a demographic bulge. The vast 
majority of Iranians are very young. They have lived most or 
all of their lives under the Islamic Republic and very well 
know that the Islamic Republic is not doing the job, the 
economic job, the political job, the civil society job that 
they need.
    Our negotiations with the Iranian people are a good idea, 
but any negotiations which demonstrate to the vast majority of 
Iranians that want change, that the United States is so 
preoccupied with a tangential issue that we have articulated 
limits to our support for their desire for freedom are 
dangerous. And I would say this, and I specifically say this to 
you, Chairman Coburn, because you are a medical doctor: I think 
diplomacy should be pursued from a ``do no harm'' standpoint. 
And in this context, the negotiations that were proffered by 
the State Department may have had tactical benefits, but over 
the long term they were very damaging.
    Senator Coburn. Senator Dayton.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Mr. Chairman, I thank you and the Ranking 
Member for holding this very important hearing. I regret, 
analogous to your other profession, I hold afternoon office 
hours with a stream of Minnesotans who want to see me, and I 
try my best to honor that. But really it is one of those where 
I scheduled all that well in advance of knowing about this 
hearing, and I regret not being able to be here. I thank you 
for convening it.
    I am not going to risk redundancy, either of testimony or 
previous questions, but I will review the transcript of the 
hearing. I thank all of you for your participation, for your 
patience. We do not have many witnesses who speak even longer 
than Senators, but that is something we practice here, and it 
was very informative. I do not mean it in any way 
disrespectfully. But I noticed you all have been very 
respectful and patient, so I want to acknowledge that. And 
thank you for bringing your expertise to us. I am sorry more of 
us--I am supposed to be in three different places 
simultaneously right now in addition to here, and I think my 
colleagues share that difficulty. And so I apologize on their 
behalf and regret that, but thank you again for your expertise.
    Thank you, Mr. Chairman.
    Senator Coburn. I have several more questions. In Dr. 
Walsh's testimony, he testified that it would not be the end of 
the world if Iran obtains nuclear weapons despite the fact that 
the Iranian regime is saying that it intends to use those 
weapons against Israel, and the quote is, ``to wipe Israel off 
the map.'' We have good knowledge that Iran is behind the 
recent attacks against Israel, and the roadside bombings for 
sure, they are killing our soldiers. Should the United States 
take Iran's statements seriously or not in regards to their 
long-term goals of nuclear weapons or nuclear proliferation, 
nuclear development? I have heard what Dr. Ledeen said. I am 
interested in your response to that.
    Mr. Walsh. Yes, Senator, thank you, and thanks for quoting 
my testimony, and I appreciate the care with which----
    Senator Coburn. I started reading it at 5 o'clock this 
morning because I did not get it until late last night.
    Mr. Walsh. Well, I appreciate it nonetheless. And as you 
know, in the rest of the testimony it goes on to say that I 
have spent all my adult professional career working to try to 
prevent the spread of nuclear weapons, and I do not welcome----
    Senator Coburn. Well, let me make it clear, we are very 
happy with the quality of the people that are testifying, and 
we doubt none of your motivations. But these are legitimate 
questions that the American people are going to ask. When, in 
fact, the President of Iran says that he intends to wipe Israel 
off the face of the map and is involved in a nuclear 
development program that will ultimately end up in nuclear 
weapons, it is not a long step at all to conclude that those 
weapons are intended for Israel. So those are the facts of what 
is being presented. Whether that is the behind-the-scenes 
truth, we do not know. I suspect you do not know.
    Mr. Walsh. I think that is right, but let me speak to that.
    First of all, obviously, as everyone has said so far, it is 
not the president that calls the shots on nuclear policy. It is 
the supreme leader, and under him, Larijani, that makes nuclear 
policy, not the president. The president I assume will be a 
one-term wonder and is here as primarily a president elected on 
economic populism, not foreign policy.
    Moreover, I think the Iranians----
    Senator Dayton. Be careful what you say about one-term 
wonders. [Laughter.]
    Mr. Walsh. Let me also point out that Iran is more than 
aware of the fact that Israel has nuclear weapons, that the 
United States would not allow Israel to be threatened with 
nuclear weapons, but Israel has its own nuclear deterrent.
    The other thing to keep in mind is, as John Negroponte has 
pointed out, the time frame here is not tomorrow, it is not 
next month. It is sometime between the middle of the next 
decade or the end of the next decade. So this is not an 
imminent threat to U.S. national security and it is not an 
imminent threat to Israeli national security.
    Senator Coburn. Well, could you give me some of your 
history? North Korea's development of nuclear weapons proceeded 
at a slower pace than what is expected to be from Iran. Is that 
correct?
    Mr. Walsh. Well, the North Korean program started in the 
mid-1980s, and most intelligence estimates that they completed 
their first device sometime between 1990 and 1994. That is when 
the CIA said they had somewhere between zero and two nuclear 
weapons.
    Senator Coburn. And the Pakistanis did that in a shorter 
period of time.
    Mr. Walsh. Well, the Pakistani program began in roughly 
1972, and they did not test until 1998. And most of my 
colleagues think they had nuclear weapons in the late 1980s. 
But let me speak directly to the point of Iran. The puzzle 
about Iran, given the neighborhood that it lives in, given the 
fact that there is nuclear Pakistan on its border, nuclear 
Russia, all these states, Israel, the surprise is that they 
have not done more in the nuclear area. They started their 
program, whatever that program may be, by most accounts 
sometime in the mid-1980s. It is now 2005, and they have 164 
centrifuge cascade.
    Senator Coburn. That we know about.
    Mr. Walsh. Well, that the IAEA believes is the case.
    Senator Coburn. But the IAEA talks about them violating the 
no-reporting obligations for 18 years, and the testimony we 
have just had is we do not know.
    Mr. Walsh. Well, I agree with you. My view is that we 
should follow what the IAEA says, and on this I think they are 
pretty clear that their centrifuge capacity is perhaps--they 
have parts for a thousand. Whether they have all the parts for 
a thousand more centrifuges is unclear. But no one thinks that 
they are going to have a bomb tomorrow or anytime soon, even if 
they made a command decision to do so, and that, of course, is 
the judgment of the top-ranking intelligence officer in the 
United States.
    Mr. Takeyh. If I can say a few things about this, Senator?
    Senator Coburn. Sure.
    Mr. Takeyh. I do not think we can be sanguine or complacent 
about Iran's nuclear motivations or ambitions. I think Iran's 
nuclear danger is acute and growing. I think should Iran cross 
the nuclear threshold in violation of its NPT obligation, that 
essentially ends the Nuclear Nonproliferation Treaty, which in 
my opinion has been a very beneficial treaty in terms of 
preventing the spread of nuclear weapons and dangerous nuclear 
technologies. I think it will have a destabilizing impact on 
the region, namely, it could spark an arms race. And a region 
that should devote its economic resources to its people, to 
benefits of the health care and public schooling, is likely to 
divert it to further build-up of conventional arms, at least, 
and quite possibly divert scarce resources to building up 
nuclear programs.
    So this is not something that we can look for with any 
degree of ease. This is why I do believe that diplomacy has to 
be energetic, comprehensive, and imaginative. I think sitting 
around wishing the Iranian nuclear program away, talking about 
how more radio broadcasts is going to make it go away is not 
the way to go. Radio broadcast is not a judicious counter-
proliferation strategy. I cannot think of any time that radio 
broadcasts have worked in terms of effectively disarming a 
country. We have to have a very effective diplomacy. I think 
Secretary Rice took a first step in that direction, and it has 
to go many more steps. Otherwise, we cannot potentially get to 
a position where we have not only a hegemonic Iran in the 
Persian Gulf, where there is nothing particularly stopping 
them. Iraq is a broken country. The Gulf States are not going 
to do anything about it, and we are leaving the Gulf. We are 
leaving Iraq. That is just the reality of the situation. I 
think we all know that. And they know that. So we can have a 
hegemonic Iran with a mature nuclear capability. That is not 
something that is desirable, and that is why I do believe that 
the diplomatic solution to this issue is urgent and quite 
imminent.
    Senator Coburn. Would you agree with Dr. Ledeen that we 
need a total Iran policy instead of focus at the issues that 
come up?
    Mr. Takeyh. Yes. Oh, yes, as I mentioned, I think we have 
to have a comprehensive discussion with Iranians that tends to 
deal with issues of the nature of their support for terrorist 
organizations.
    Senator Coburn. I would tell you, I am somewhat encouraged 
in terms of students because I look at Poland and I look at 
Ukraine and nobody in the State Department saw Ukraine coming. 
Nobody saw it coming, the fact that brave leaders stood up and 
challenged authoritarianism and made a difference. And so, my 
caution is that we certainly nurture in any way possible the 
voice of a secular government in Iran, and if that is through 
student organizations and women's organizations and union 
organizations, that certainly should be part of a total policy. 
Would you disagree with that?
    Mr. Takeyh. No. I do think we have to have a broad policy 
to deal with issues of proliferation, terrorism, human rights, 
and Iranians will have their own grievances to bring to the 
table, whether it is our sanction policy, whether it is frozen 
assets. I mean, everything has to be on the table, but not 
necessarily--the progress of any one issue should not be linked 
to the other, namely, I would not prevent negotiations or a 
deal on the nuclear issue if we have not reached an accord on 
the issue of the nature of the Iranian relationship with 
various Palestinian rejectionist groups. But I do think the 
negotiations have to be broad and comprehensive, although not 
necessarily the progress of any one issue linked to the other 
one.
    Senator Coburn. Dr. Ledeen or Mr. Berman.
    Mr. Berman. Thank you. Let me just say a couple words, 
because Dr. Takeyh said something very controversial. He said 
that public broadcasting has never forced a regime to give up 
its arms, which technically is true. But it is useful to 
remember, as I said in my testimony and Dr. Ledeen said in his 
testimony, the issue is not nuclear weapons. The issue is the 
character of the regime that will ultimately wield them. And 
public broadcasting and public diplomacy were responsible, at 
least in part, for the single largest totalitarian collapse in 
modern history. So let's not underestimate the effectiveness of 
these tools.
    On the issue of the question that you asked Dr. Walsh, let 
me just chime in here for a second, because I think what we are 
really talking about is: At the end of the day, if Iran does go 
nuclear, can we have some sort of modus vivendi with them? I 
would argue very differently than Dr. Takeyh and Dr. Walsh, 
because it seems to me that it may have been true a year ago to 
say that the Iranian presidency is an empty office and the 
supreme leader calls the shots. It is far less clear that is 
the case today.
    What we have seen over the last year is the rise of what 
Dr. Takeyh has called in other publications a ``war 
generation,'' embodied by Mr. Ahmadinejad, and also his 
systematic consolidation of power, to the extent that the 
president has now emerged, at least in part, as an independent 
foreign policy in his own right. And that is very important 
because a year ago, 5 years ago, we could have said the supreme 
leader holds all the cards. The supreme leader can escalate or 
de-escalate the nuclear issue at his will.
    I am not sure we can say that anymore. I think it is true 
that the supreme leader can escalate the nuclear issue, but I 
am not at all sure that the new power centers that are emerging 
in the Islamic Republic will allow him to de-escalate if in 
this game of nuclear chicken he all of a sudden decides to 
blink.
    Senator Coburn. And I would also note that the supreme 
leader, in his belief in the 12th Imam, might benefit from the 
utilization of nuclear weapons as well.
    Dr. Ledeen.
    Mr. Ledeen. Well, the question of who is Ahmadinejad and 
what does he represent reminds me a lot about the good old days 
of the Soviet Union when people used to say, Molotov is such a 
good fellow to work with, it is a pity that Stalin is always in 
the way.
    I think that the only person who matters on any serious 
question facing Iran is the supreme leader. That is why he has 
that name. That is what it means. He is the supreme leader. He 
determines policy. And I do not think--to mildly disagree with 
Ilan, I do not think that Ahmadinejad is any more an 
independent actor or any more representative of a new class and 
a new force or independent political movement inside Iran than 
was the opposite of Ahmadinejad, who was Khatami for 9 years 
before Ahmadinejad. Then people ran around and said Iran is in 
the grips of a reform movement and is moving toward reform. 
Well, in 9 years there were no reforms.
    Now everybody is saying Iran is in the grips of a super-
fanatic religious nut case named Ahmadinejad. But his 
statements are canonical. In regimes of this sort, I do not 
believe that the president would be permitted to go around 
saying things that are not approved by the supreme leader. And 
I think that we can take what he says as an expression of what 
the supreme leader and his henchmen want us to hear and want us 
to believe. And as for what they--that does not necessarily 
mean it is what they really believe. I mean, it is a whole 
culture based on deception, after all, and illusion. We should 
not forget this.
    The one thing that is a reliable basis for analysis in 
terms of what Iran might do when and if it gets nuclear weapons 
is their religious convictions and is the doctrine of the 12th 
Imam and the End of Days and where the world is seen heading, 
and the world as they see it--and from time to time, I have 
been fortunate enough to get what I think are very accurate 
minutes from high-level meetings in Iran, and I have published 
them. And their view of the world is that what they are doing 
is working, that we are bending to their will, that we are 
ready to be driven out of the Middle East and elsewhere, and 
that in relatively short order they are going to dominate and 
they will then use their nuclear weapons.
    On the question of what they have and what they do not 
have, I will only say again what I said at greater length in my 
prepared testimony, and that is that we have always been wrong 
on estimating how long it takes country A or B or C to develop 
nuclear weapons. We have always been surprised. We were 
surprised when the Soviets did it. We were surprised when the 
Chinese did it. We were surprised when the French did it. We 
are always surprised. We were surprised when India and Pakistan 
tested nuclear weapons during----
    Senator Coburn. We were surprised when they told us they 
were not, and then the students revealed they were.
    Mr. Ledeen. Yes. Well, I mean intelligence is imperfect, 
and CIA excels at imperfection. What can we say.
    Senator Coburn. I would also put forward that Natan 
Sharansky said that the linkage of human rights to military and 
economic issues is the very thing that did break the USSR, and 
that is somebody that was on the inside the whole period of 
time that was going on.
    Dr. Takeyh, in your testimony you started out by saying the 
current generation of pro-regime Iranians are not preoccupied 
with the United States but are looking eastward. But it seems 
you contradict this by saying that the same people are paranoid 
about the United States, that the drive for nuclear weapons is 
deterring for what you call ``superpower bullying.'' Which is 
it? Are they looking to the East, or are they looking to the 
West?
    Mr. Takeyh. I think in terms of economic opportunities, 
increasingly there are many within the Iranian regime that 
suggest they should look eastward to China, Japan, India, 
Russia, and essentially reorient Iran's trade toward those 
countries, which are not as concerned about Iran's 
proliferation tendencies or for that matter human rights 
abuses. So essentially trade packages that do not come with 
conditions about internal practices.
    Senator Coburn. No strings.
    Mr. Takeyh. That is right. And this has to do not just with 
energy deals but also technology transfers. In terms of the 
second portion of my testimony that you alluded to, I am not 
quite sure. If you can give me the context, maybe I can give 
you a more informed assessment.
    Senator Coburn. Well, the reference was to ``superpower 
bullying.''
    Mr. Takeyh. Oh, yes. I think I know. There are those within 
the Iranian regime that suggest that the United States is not 
particularly concerned about Iran's proliferation tendencies, 
but is concerned about the character of the regime. They do not 
have to make concessions on this because they are being picked 
on, not because of their treaty violations or treaty 
provocations, but because of superpower bullying. So 
essentially there is a suggestion that U.N. processes and U.N. 
resolutions and IAEA resolutions that have come about are 
politically contorted as a result of----
    Senator Coburn. How do we change that? That is obviously a 
misperception, You would agree with that?
    Mr. Takeyh. Yes.
    Senator Coburn. And we all in this room understand it is a 
misperception. So how do we change that perception? Or is that 
a convenient misperception on their part?
    Mr. Takeyh. Well, it is a misperception that we have 
already changed in the sense that much of the international 
community agrees with the United States----
    Senator Coburn. I am not talking about the international 
community. I am talking about the leaders of Iran.
    Mr. Takeyh. I understand that. Much of the international 
community agrees that Iran stands in violation of NPT 
obligations and, therefore, there should be multilateral 
pressures on it if it does not cease its objections and its 
objectionable activities.
    However, it is the same international community that 
suggests the United States should go the extra mile in terms of 
the negotiations before they sign off to any level of 
multilateral pressures enacted through the United Nations, and 
I think ultimately that is the type of pressure that can work, 
multilateral measures through the United Nations adhered to by 
the international community over a persistent period of time. 
That may temper the regime's ambitions in that particular 
realm. But I do not think this is something the United States 
can achieve unilaterally, whether it is unilateral economic 
concessions, unilateral economic coercion, or any sort of 
military program.
    Senator Coburn. All right. One other thing. We had some 
comments in terms of regime change and support for the 
students, in terms of the Voice of America and--is it Radio 
Farsi?
    Mr. Takeyh. Farda.
    Senator Coburn. Farda. Any comments about the effectiveness 
of the tools that the United States is using today in terms of 
trying to accomplish that goal? I am not talking about whether 
you believe that is an effective tool, but given the fact that 
we are using the tool, are we doing it effectively?
    Mr. Takeyh. Well, there is in my view an analytical 
challenge here, because the notion that has been presented is 
that Iran is an information-starved society. I do not know how 
that is possible in the global village that we live in, in an 
era of globalization. There are 24-hour Persian broadcasts into 
Iran every day. It is called BBC Persian Service. It is 24 
hours a day. It is on radio. There is talk of a BBC television 
station. And if you want to reach the Iranian people, radio, 
transistor radio, particularly in provinces and so forth. So 
there is 24-hour radio broadcasts from the British Broadcasting 
Company every day.
    As a consumer of VOA----
    Senator Carper. Excuse me. Are those broadcasts 
intercepted?
    Mr. Takeyh. You can listen to it every day in Iran. They 
are not intercepted, blocked, or anything. As a matter of fact, 
one of the ironies is many who advocate greater radio 
broadcasts by the United States, they say we need politically 
neutral broadcasts like BBC Persian Service, except they 
neglect to say there is something called the BBC Persian 
Service. I think there is Internet use in Iran which is 
significant. All Iranian papers are on the Internet. As a 
consumer of those, someone who listens to Iranian radio 
broadcasts every day--I listen to it at 3:30 in the afternoon, 
which is a midnight broadcast over there. They recapitulate the 
news. It is politically constrained, but certainly broadcast 
happens.
    Why is the Iranian public not more politicized? Why is it 
not more passive? The fallout question is----
    Senator Carper. Excuse me. Why is it not more passive?
    Mr. Takeyh. Why is the Iranian population passive in light 
of----
    Senator Carper. OK.
    Mr. Takeyh. Well, they do not lack information. The 
analytical challenge is why are they passive despite the level 
of information that is available to them. Why are they 
depoliticized despite the level of information that is 
available to them? There is information available.
    Senator Coburn. What is the obvious conclusion you would 
have when you have such a theocratic rule there? What is the 
obvious conclusion you would draw to that? Are there 
consequences to being active?
    Mr. Takeyh. Yes, there certainly are.
    Senator Coburn. We had somebody that has been imprisoned, 
their arm broken, their knee broken. We have pictures of the 
union truck drivers where they have, in fact, been beaten and 
tortured. There is a cost to being active in Iran.
    Mr. Takeyh. I do not see how a regime's coercive practices 
are going to be relieved by radio broadcasts. So if you are 
concerned about the fact that the security services are 
effective, radio broadcasts are not going to do much about 
that. Certainly it is a regime that is capable of, therefore, 
controlling its public space. It is a regime that is capable of 
controlling its population. That does not mean it can control 
its population forever. But if what you are saying is correct, 
then there is a certain degree of coercive stability.
    Now, I do not know necessarily that this situation is going 
to be tenable if the country gets into serious economic 
difficulties where it is no longer capable of patronage 
politics. At this particular point, I would say the Iranian 
regime has roughly between 10 to 15 percent support. But it is 
a support that they can mobilize. It is arms support. And it 
has very elaborate intelligence purposes. And one thing we have 
to appreciate is that the Iranian regime has been very 
effective at separating state from society in the sense that 
they have effectively, at least for now, managed to 
depoliticize the population.
    Iran exists on two separate planes. There is the state, 
with all its deliberations, with all its considerations. And 
there is the population that does what it wants. And at this 
particular point, one of the clever things that the Iranian 
regime has done is not to have a cultural clampdown. Iranian 
youth--many of my cousins and so forth--have sort of a vast 
subterranean activity. They go to parties. They do things. And 
the regime has not disturbed that because it recognizes that is 
a politically explosive thing to do. It is a regime that is 
very adept at survival. That does not mean it will survive 
forever. You can never look at an unrepresentative government 
and say this government will survive forever.
    Senator Coburn. Would you care to comment on the 
broadcasts?
    Mr. Berman. I would, actually. I think there are two issues 
at play here. In my testimony, I talked about the policy 
options that are available to the United States. The key 
commonality in all of those, whether it is military action, if 
it ever comes to that as a last resort, or economic sanctions 
or what have you, is for us to accurately telegraph what we are 
going to do and what we are not going to do to the Iranian 
people. They are the key allies in all of this. But so far we 
have not been able to do that.
    I will give you a concrete example. Before February of this 
year, when Secretary Rice announced the request for $75 million 
for democracy promotion, the annual allocation for 2005 for 
public diplomacy, public broadcasting into Iran was $16.4 
million. Iran is a country of 70 million people, so that is 
roughly 21.5 cents per Iranian per year. You can argue about 
whether or not we should do more, but that is clearly 
insufficient. It is doubly insufficient when we think about the 
last time we really needed a robust public diplomacy effort, 
which was the Cold War. During the Cold War, we did more than a 
third of that per Soviet per year as early as 1983.
    My argument here is that we are simply not being serious in 
terms of public broadcasting. We do not have the scope that we 
want, and we also have a corporate culture that discourages 
articulating the message that the Administration has at least 
implicitly said, which is that the U.S. Government stands with 
the Iranian people in their desire for change. Not too long 
ago, the director of Voice of America said publicly at a 
conference that the U.S. Government is not in the business of 
helping the Iranian people overthrow their government. That 
seems slightly at odds with what the President had said in 
several pronouncements.
    So it seems to me that while the President has a message 
and has articulated a message, that message could be more 
forcefully applied to the bureaucracy.
    Senator Coburn. Somebody please address my question, which 
was: Whatever the level, is the level at what we are doing, the 
content effective in accomplishing the purpose? Dr. Ledeen.
    Mr. Ledeen. The short answer is it cannot be effective 
because there is no content to communicate because we do not 
have an Iran policy. Until and unless we have an Iran policy, 
the greatest broadcasters in the world would not accomplish 
something we do not know what it is in the first place.
    I would like to comment, if I may, on the question of why 
are they so passive, and the question of information. As 
someone who has been systematically slandered by the BBC for 
most of his professional life, I rise to defend the view that 
the BBC, whatever service it may be, is not communicating 
information at all. I do not speak Farsi, so I have not 
listened to it. But if it is anything like the BBC English 
language service, I would have no trouble understanding why the 
Iranian regime would have no problem with it and would not jam 
it and so forth.
    But the serious question is: Why are they so passive? And 
that is a serious question. It almost never happens in history 
that a revolution was foreseen. Before the revolution broke 
out, everyone always said, Boy, these people are really 
passive.
    When I went to the Reagan Administration in 1981 and we 
started saying, well, we are going to try to bring down the 
Soviet empire, everybody thought we were mad. They said, well, 
look at the way the people behave. Nobody will take a chance. 
No one will challenge them. You have these obscure dissidents, 
one or two of them, and they get locked up and are never heard 
from again. And then there was this tiny trade union movement 
in Poland in the Gdansk shipyards.
    Well, 9 years later it came down, vast popular support for 
the overthrow of that regime. It turned out it was there. We 
did not see it.
    If you compare the level of protest and the level of 
political complaint against the regime in the Soviet Union 
circa 1981, 1982, with the level of ongoing political 
demonstration against the Iranian regime, week after week and 
month after month and year after year, big numbers of people, 
tens of thousands, hundreds of thousands, up to a million 
people 3, 4 years ago in the streets of Tehran, there is no 
question that the people have a very sharp political awareness 
of the evils of the regime, and they do not like it.
    And when Dr. Takeyh says, quite rightly, that the regime 
probably has 10, 15 percent support, I think that is probably 
just about right. And the other 85 or 90 percent are not 
mobilized to do it, and no one is smart enough to know why 
exactly. But we do know one thing, that is, Iranian culture, 
the Iranian people believe that nothing can happen, nothing of 
this magnitude can happen without the support of the United 
States. And they do not have that. They have not seen it. They 
have heard various statements from various people. I believe 
that a few years ago, somewhere--what was it, 3 years ago, in 
2003? I could be wrong. I have reached an age where active 
memory is failing rapidly. But they were gearing up for big-
scale demonstrations all over the country when the Secretary of 
State, then Secretary Powell, was asked were we going to 
support this imminent nationwide uprising, and he said, ``We do 
not wish to get involved in an Iranian family squabble.'' And 
you could hear the great sucking sound as the air came out of 
the balloon, and nothing happened. Demonstrations were 
canceled, the movement was canceled, and so forth.
    When the United States moves, the world changes, and this 
kind of static analysis, as the economists would call it, of a 
country in which you do not see revolutionary activity in the 
Washington Post, but then the Washington Post has never 
reported on the huge demonstrations that take place all the 
time all over Iran. So we will not read about that anyway. We 
do not hear about tens of thousands of people demonstrating in 
Baluchistan. We do not hear about the general strike in the oil 
fields in Khuzestan, but it is there. So to say why are they so 
passive, for me the real question is, compared to other modern 
and contemporary examples of successful democratic revolutions, 
the Iranians are super-active, they are super-politicized. They 
are the opposite of passive. Look at all those people--and the 
amazing thing is that they have lost their fear of the terrible 
tortures to which they are subjected when they get rounded up. 
There is a video of this poor man's tongue being cut out. It is 
not just a matter of burns on his back. And they have, for the 
most part, overcome that as well.
    So, we need a policy. We do not have one. And I think it 
should be a policy of support for democratic revolution. Just a 
final point. And I would advocate that. Even if Iran were not 
the world's biggest supporter of terrorism, and even if Iran 
did not have a nuclear weapons policy at all, because it is the 
right thing to do, it is what we should stand for. It is what 
America is supposed to be all about.
    Senator Coburn. Thank you, Dr. Ledeen.
    Senator Carper is going to have to go, so I am going to 
turn to him.
    Senator Carper. We are having a debate over on the Senate 
floor about whether or not to extend, reauthorize the Voting 
Rights Act of 1965, and my time slot is in about 7 minutes so I 
have to run.
    Before I do that, I just want to say to Dr. Walsh, Dr. 
Takeyh, Dr. Ledeen, and Dr. Berman.
    Mr. Berman. I am a lawyer so I am not technically a doctor, 
so ``Mister'' is fine.
    Senator Carper. I just want to say this has been an 
interesting, it has been an enjoyable, it has been a 
provocative discussion, and we thank each of you for helping to 
make it that. Some of you have been before us previously, and 
we are delighted that you would come back. Some of you have 
come from afar, and we are delighted that you could be with us 
today.
    Thomas Jefferson used to say, I believe, and I will 
paraphrase him: When people know the truth, they will not make 
a mistake. And I think in Iran, to the extent that the people 
there actually understand what is at stake for them--we have 
had--Dr. Coburn and I have heard even today that the Achilles 
heel in the regime in Iran is their economy. And to the extent 
that the people there actually know what is at stake, to the 
extent that we are able to find a combination of common ground 
on the issues that we want to discuss at these multilateral 
talks, then there is a great economic benefit for the people of 
Iran. And to the extent that those talks are not productive 
or--do not begin or are not productive, that is something that 
is quite different. And I think part of the challenge for us 
and those who would like to see a better outcome is to figure 
out how best to make sure that people know the truth and are in 
a better position to put pressure on their regime and their 
leaders to not make a mistake.
    Again, our thanks to each of you, and with that having been 
said, Mr. Chairman, I am going to head out. Thanks again for 
letting us have this hearing. I think it has been great.
    Senator Coburn. I want to thank each of you. Dr. Takeyh, I 
can tell--you can see it in your face--the pain you feel on 
your mother country. And it is important that your voice is 
heard, and I appreciate you coming and testifying before us.
    I want to make a statement. I am going to be a Senator for 
at least 4 more years, and I am going to do everything I can to 
see that the people of Iran--not the government of Iran--have 
every opportunity to express themselves through a secular 
government rather than through a theocracy. And that is at 
every angle, at every appropriation bill, at every chance I 
get, to support their right for freedom.
    Thank you all for being here.
    [Whereupon, at 3:42 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
